Appendix

ia
TABLE OF CONTENTS
Unpublished Opinion of
The United States Court of Appeals for the Fourth Circuit
Entered February 23, 2021 ....................................................................................... 1a
Judgment in a Criminal Case as to Jevante Richmond of
The United States District Court for
The District of South Carolina
Entered November 15, 2019 ..................................................................................16a
Judgment in a Criminal Case as to Arthur Evans of
The United States District Court for
The District of South Carolina
Entered November 15, 2019 ..................................................................................22a

1a
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-4895

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
JEVANTE MARCUS RICHMOND, a/k/a Man,
Defendant - Appellant.

No. 20-4074

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
ARTHUR GENE EVANS, JR.,
Defendant - Appellant.

Appeals from the United States District Court for the District of South Carolina, at
Columbia. Terry L. Wooten, Senior District Judge. (3:18-cr-00864-TLW-1; 3:18-cr00864-TLW-2)

Submitted: January 29, 2021

Decided: February 23, 2021

2a

Before WILKINSON, NIEMEYER, and THACKER, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Jeremy A. Thompson, Assistant Federal Public Defender, OFFICE OF THE FEDERAL
PUBLIC DEFENDER, Columbia, South Carolina; John E. Duncan, LAW OFFICE OF
JOHN E. DUNCAN, Lexington, South Carolina, for Appellants. Peter M. McCoy, Jr.,
United States Attorney, Columbia, South Carolina, Andrew R. De Holl, Assistant United
States Attorney, OFFICE OF THE UNITED STATES ATTORNEY, Charleston, South
Carolina, for Appellee.

Unpublished opinions are not binding precedent in this circuit.

2

3a
PER CURIAM:
Jevante Richmond (“Appellant Richmond”) and Arthur Evans (“Appellant Evans”)
(collectively “Appellants”) challenge the sentences they received after pleading guilty to
charges stemming from a twenty four hour crime spree in which Appellants stole three cars
and a wallet using guns and violence. Appellants claim the district court procedurally and
substantively erred in reaching its sentencing decisions.
We conclude Appellants’ sentences are procedurally reasonable because the district
court adequately addressed the requisite sentencing factors, as well as the arguments
submitted by each Appellant. Given that the district court has broad discretion when
weighing the sentencing factors, we further conclude the sentences were substantively
reasonable and the difference in the Appellants’ sentences was sufficiently justified by each
Appellant’s distinct conduct.
Therefore, finding no reversible error, we affirm.
I.
A.
Underlying Criminal Conduct
The underlying crimes at issue began when Appellant Evans stole a victim’s car at
gunpoint. Appellant Evans asked the victim for directions and then pointed a revolver at
her and ordered her out of the car. Appellants then drove the stolen car to a gun show,
where they broke into several trailers and stole five guns and 1,500 rounds of ammunition.

3

4a
The following night, Appellants and Shelvey Grant (“Grant”) 1 attempted to steal three
more vehicles by using the same method they had employed the previous night. Two of
their attempts were successful.
During the unsuccessful second attempt, the victim grabbed the gun that was
brandished by Appellant Evans and struggled for control over it. With the help of Grant,
Appellant Evans regained control over the gun and struck the victim in the face. Appellant
Evans then stole the victim’s wallet and fired shots in the air as he fled with Appellant
Richmond in a recently stolen vehicle. Appellants then proceeded to their third carjacking,
in which Appellant Evans successfully stole a second car at gunpoint. Appellant Evans
fled the scene in the newly stolen car with Appellant Richmond following in the previously
stolen vehicle.
Police ultimately arrested Appellant Evans after he led them on a high-speed pursuit
in one of the stolen vehicles. Appellant Evans crashed the vehicle during the pursuit and
attempted to flee on foot before being apprehended. Appellant Richmond was arrested
weeks later, although by the time of his arrest he was already in jail on state charges that
included attempted murder and an additional carjacking.
B.
Appellants’ Plea Agreements and Sentences
Appellant Evans was indicted by a grand jury on eleven charges: four counts of
carjacking, three counts of brandishing a firearm during a crime of violence, one count of

1

Grant is not a party to this appeal.

4

5a
discharging a firearm during a crime of violence, two counts of being a felon in possession
of a firearm, and one count of being in possession of stolen firearms. Appellant Richmond
was charged with one count of being a felon in possession of a firearm, one count of being
in possession of stolen firearms, and one count of brandishing a firearm during a crime of
violence. Both Appellants pled guilty pursuant to written plea agreements that did not
stipulate specific sentences.
The United States Probation Office filed presentence investigation reports (“PSRs”)
for both Appellants. The PSRs calculated advisory United States Sentencing Guidelines
(“Guidelines”) range sentences for each Appellant. Each sentence calculated by the PSRs
was within-Guidelines and consisted of 204 months of imprisonment for Appellant Evans
and 184–204 months of imprisonment for Appellant Richmond.

Appellants were

originally set to be sentenced at a joint sentencing hearing held on July 16, 2019, but at that
hearing, the district court rejected the plea agreements.
The district court rejected the plea agreements due to the concern that the advisory
Guidelines range sentences they produced were “too lenient in light of the circumstances.”
J.A. 130. 2 After rejecting the plea agreements, the district court advised Appellants that
they had the right to withdraw their guilty pleas and noted that if they did not, “the court
may dispose of [their] cases less favorably” than the plea agreements contemplated. Id. at
165. Nonetheless, neither Appellant moved to withdraw his guilty plea, and a second joint
sentencing hearing was scheduled. At the conclusion of the second sentencing hearing, the

2

Citations to the “J.A.” refer to the Joint Appendix filed by the parties in this appeal.

5

6a
district court sentenced Appellant Richmond to an above-Guidelines sentence of 240
months of imprisonment and Appellant Evans to an above-Guidelines sentence of 252
months of imprisonment.
Both Appellants timely appealed, claiming the sentences are the result of procedural
and substantive error.
II.
All sentences -- “whether inside, just outside, or significantly outside the Guidelines
range” -- are reviewed pursuant to an abuse of discretion standard. United States v. Blue,
877 F.3d 513, 517 (4th Cir. 2017) (quoting Gall v. United States, 552 U.S. 38, 41 (2007)).
“Under this deferential standard, we first review for procedural reasonableness.” Id. If we
conclude that the procedure was reasonable, we proceed to “consider the substantive
reasonableness of the sentence imposed.” Id.
III.
A.
Procedural Reasonableness
The Guidelines set forth advisory sentence ranges, “requiring a sentencing court to
consider Guidelines ranges, . . . but permitting it to tailor the sentence in light of other
statutory concerns.” United States v. Booker, 543 U.S. 220, 222 (2005) (citing 18 U.S.C.
§ 3553(a)). The procedural prong of our review requires district courts to begin sentencing
proceedings by treating the Guidelines as “the starting point and the initial benchmark.”
Blue, 877 F.3d at 517. Thereafter, the district court must “give the parties the opportunity
to argue for whatever sentence they deem appropriate and consider those arguments in light
6

7a
of all of the factors stated in 18 U.S.C. § 3553(a).” Id. at 517–18. Finally, the “district
court must address the parties’ nonfrivolous arguments in favor of a particular sentence,
and if the court rejects those arguments, it must explain why in a sufficiently detailed
manner to allow this Court to conduct a meaningful appellate review.” United States v.
Provance, 944 F.3d 213, 218 (4th Cir. 2019) (internal quotation marks omitted). Failure
“to consider the § 3553(a) factors” or to “adequately explain the chosen sentence are
procedural errors.” Id.
Appellants claim the district court committed three procedural errors when
imposing their sentences. First, they argue the district court erred by focusing too narrowly
on only one of the § 3553(a) factors, specifically “the nature and circumstances of the
offense.” 18 U.S.C. § 3553(a)(1). Second, Appellants assert the district court failed to
adequately respond to their nonfrivolous arguments in favor of within-Guidelines
sentences. Finally, Appellant Richmond contends the district court erred by justifying its
imposition of an above-Guidelines sentence on a mistaken premise.

According to

Appellant Richmond, the district court mistakenly concluded that Appellant Richmond had
several charges dismissed as a result his plea agreement and that his Guidelines sentencing
range would have been substantially higher if he had been convicted on all counts.
1.
Pursuant to § 3553(a), there are several factors a district court must consider when
imposing a sentence. However, we have made clear that a district court is not required to
“robotically tick through § 3553(a)’s every subsection” or “explicitly discuss every
§ 3553(a) factor” when explaining its chosen sentence, in part because many of the factors
7

8a
can overlap. United States v. Johnson, 445 F.3d 339, 345 (4th Cir. 2006). Yet, Appellants
are correct that a district court cannot justify a sentence by simply “offering its view of the
seriousness of the offense” if it “ignored every other statutory factor.” United States v.
Lymas, 781 F.3d 106, 113 (4th Cir. 2015). But that is not to say that a district court is
required to “give all the different factors precisely equal weight.” United States v. Fowler,
948 F.3d 663, 672 (4th Cir. 2020). On the contrary, the facts of a particular case may
render it appropriate “for the sentencing court to have ‘attached great weight’ to a single
factor.” United States v. Pauley, 511 F.3d 468, 476 (4th Cir. 2007) (quoting Gall, 552 U.S.
at 59).
Here, although the district court was particularly concerned with the serious and
violent nature of the underlying criminal conduct, we are satisfied that the district court
properly considered the totality of the § 3553(a) factors with respect to each Appellant.
First, the district court’s detailed analysis of the nature of each Appellant’s conduct is
relevant to multiple § 3553(a) factors, namely “nature and circumstances of the offense,”
“the need for the sentence imposed . . . to reflect the seriousness of the offense,” and “the
need to avoid unwarranted sentence disparities among defendants.”

18 U.S.C.

§ 3553(a)(1), (a)(2)(A), (a)(6). Furthermore, the district court expressly considered factors
other than those pertaining to the nature of Appellants’ conduct, all while frequently
acknowledging the existence and significance of the § 3553(a) factors as a whole. For
example, the district court referenced the deterrence factor and noted that Appellant Evans
“was on parole at the time he committed this offense.” J.A. 253. The district court also

8

9a
cited “[p]rotection of the public” and the need for “substance abuse testing and treatment”
as additional factors considered in both of Appellants’ sentences. Id. at 253, 258, 263.
Therefore, we conclude the district court’s explanation for its sentences indicates
that it sufficiently considered the totality of the § 3553(a) factors.
2.
We next address Appellants’ claim that the district court erred by failing to
adequately respond to their nonfrivolous arguments in favor of within-Guidelines
sentences. Appellant Richmond contends the district court failed to adequately address his
arguments regarding analyzing the § 3553(a) factors with respect to each individual count
pursuant to Dean v. United States, 3 his criminal history, his familial support, the lack of
prior violence in his record, and the Government’s argument based on his cooperation with
law enforcement. Appellant Evans contends the district court erred by failing to address
his arguments regarding the nature of his upbringing and his desire to accept responsibility
for his conduct and rehabilitate.
It is well established that a sentence is procedurally unreasonable if “the record fails
to make it patently obvious” that the “sentencing court truly considered the parties’
nonfrivolous arguments.” Provance, 944 F.3d at 218 (internal quotation marks omitted).
When evaluating the sufficiency of the district court’s engagement with particular
arguments, “we look at the full context, including the give-and-take of a sentencing

3

137 S. Ct. 1170, 1176 (2017) (holding district courts may consider the § 3553(a)
factors when determining a sentence for each individual offense in a multicount case).

9

10a
hearing.” United States v. Nance, 957 F.3d 204, 213 (4th Cir. 2020). “Where a sentencing
court hears a defendant’s arguments and engages with them at a hearing, we may infer from
that discussion that specific attention has been given to those arguments.” Id. Moreover,
when a district court fully addresses an argument’s “central thesis,” the district court is “not
also required to address separately each supporting data point marshalled on its behalf.”
Id. at 214.
We find no reversible error in the manner in which the district court responded to
each Appellant’s arguments. As an initial matter, the district court had no reason to
specifically address any argument based on Dean v. United States or Appellant Richmond’s
claims of his overstated criminal history because at the sentencing hearing, Appellant
Richmond conceded those arguments. See J.A. 217 (“I’m not arguing Dean.”); see also
id. at 216 (stating that although Appellant Richmond “could . . . argue . . . his criminal
history is overstated . . . [he was] not asking Your Honor to depart from a criminal history
V to a IV” (emphasis supplied)). Moreover, regarding Appellant Richmond’s argument as
to the lack of violence on his criminal record, the district court simply disagreed with
Appellant Richmond that his criminal history did not include any violent crimes. Id. at 225
(The court: “I don’t know that I want to characterize the prior convictions as just property
offenses.”). Additionally, the district court explicitly observed that the Government argued
for a within-Guidelines range because of Appellant Richmond’s cooperation. And the
district court went on to state it was “going to consider that” fact when issuing Appellant
Richmond’s sentence.

Id. at 235.

Finally, although the district court should have

responded to Appellant Richmond’s argument regarding his familial support, failing to do
10

11a
so was not reversible error because Appellant Richmond failed to demonstrate any
extraordinary familial circumstances. Cf. United States v. Martin, 520 F.3d 87, 93 (1st Cir.
2008) (“A district court therefore may take idiosyncratic family circumstances into
account . . . .” (emphasis supplied)); see also United States v. Boulware, 604 F.3d 832,
839–40 (4th Cir. 2010) (explaining that any error stemming from the district court’s failure
to consider a party’s arguments is harmless where the arguments are “very weak”).
Regarding Appellant Evans, while it is true the district court did not specifically
address his personal statement that expressed remorse and a desire to change when it
announced his sentence, the court sufficiently engaged the statement at the sentencing
hearing, so “we may infer from that discussion that specific attention [was] given” to that
point. Nance, 957 F.3d at 213. Indeed, the district court responded to Appellant Evans’s
personal statement, stating, “I’ll take into consideration what you have said,” and “I hope
you’ll do what you say. I hope you’ll stay out of trouble.” J.A. 246.
Appellant Evans’s remaining arguments regarding his sentencing memorandum and
the Guidelines’ lack of credit for acceptance of responsibility in cases where a defendant
has only been convicted of § 924(c) offenses share the same “central thesis” as his personal
statement. Nance, 957 F.3d at 214. Namely, that Appellant Evans expressed remorse for
his conduct as well as a desire to change. Therefore, we are satisfied that these points were
also sufficiently addressed during the “give-and-take of [the] sentencing hearing.” Id. at
213.

11

12a
3.
Finally, Appellant Richmond argues the district court committed procedural error
by justifying an above-Guidelines sentence based in part on a mistake. Specifically,
Appellant Richmond claims the district court’s observation that he had charges dismissed
as a result of his plea agreement and “had he been convicted on all of the counts, [the
Guideline range] would have been substantially higher” was incorrect. J.A. 234. While
Appellant is correct that the Government only dismissed one charge pursuant to the terms
of Appellant Richmond’s plea agreement and that even if the charge had not been
dismissed, his advisory Guidelines range would have been no different, to the extent the
district court was mistaken on these facts, we conclude that it was not reversible error.
To begin with, we review this specific contention pursuant to a plain error standard
because Appellant Richmond failed to object to the district court’s factually and legally
inaccurate statement about his plea agreement. See United States v. Hargrove, 625 F.3d
170, 184 (4th Cir. 2010) (“[I]n the absence of proper preservation, plain-error review
applies.”). Accordingly, Appellant Richmond “must establish that the . . . error was plain,
and that it affected his substantial rights.” United States v. Robinson, 627 F.3d 941, 954
(4th Cir. 2010) (internal quotation marks omitted). Such errors are only “corrected where
not doing so would result in a miscarriage of justice or would otherwise seriously affect
the fairness, integrity[,] or public reputation of judicial proceedings.”

Id. (internal

quotation marks omitted).
Here, Appellant Richmond fails to demonstrate such error. First, the district court
noted that it was concerned not only about charges that were brought and subsequently
12

13a
dismissed pursuant to the plea agreement but also about charges that could have been
brought against Appellant Richmond but were not pursued in the first instance. Thus, the
district court was not exclusively concerned with the dismissed charges; it was also inclined
to vary upward given the unpursued criminal charges. Moreover, when the sentencing
hearing is viewed in its full context, it is clear that uncharged criminal activity did not play
a substantial role in the sentencing decision. As noted at the outset of the procedural
reasonableness analysis, the district court was particularly moved by the serious and violent
nature of Appellants’ underlying criminal offenses as well as the need for deterrence.
Indeed, prior to making the statement Appellant Richmond claims was error, the district
court emphasized “the nature and the circumstances of the offense.” J.A. 233 (“The
conduct is clear here. Violent Crime, violent offenses, no question about that.”); see also
id. at 235 (noting “there has to be deterrence in this case” and “the protection of the public
is a factor here”).
Thus, even if assumed inaccurate, we conclude that the district court’s statements
did not amount to an infringement on Appellant Richmond’s substantial rights or a
miscarriage of justice.
B.
Substantive Reasonableness
After determining the sentences here are procedurally reasonable, we turn to
substantive reasonableness. See Nance, 957 F.3d at 212. Substantive reasonableness
review “takes into account the totality of the circumstances to determine whether the
sentencing court abused its discretion.” Id. (internal quotation marks omitted). Notably,
13

14a
“[e]ven if ‘the sentence is outside the Guidelines range, the court may not apply a
presumption of unreasonableness. It may consider the extent of the deviation, but must give
due deference to the district court’s decision that the § 3553(a) factors . . . justify the extent
of the variance.’” Id. (quoting Gall, 552 U.S. at 51). Nonetheless, the further a district
court diverges from the advisory Guidelines range, “the more compelling the reasons for
the divergence must be.” United States v. Hampton, 441 F.3d 284, 288 (4th Cir. 2006).
Appellants first challenge the substantive reasonableness of their sentences by
repeating their claims regarding the district court’s focus on the nature of the crime
committed. This argument fails because in this Circuit we frame that issue as one of
procedural reasonableness. See Lymas, 781 F.3d at 112–13. And we have already held
that the sentences were procedurally reasonable because the district court gave all of the §
3553(a) factors due consideration.
Next, Appellants claim the district court erred by justifying its upward variances
based on the serious nature of the underlying conduct because Congress and the Sentencing
Commission already had the nature of the conduct in mind when establishing Guidelines
ranges for § 924(c) convictions. But once again, this argument fails because we disagree
with its assumed premise. Specifically, we concluded the district court’s decision to vary
upward was not based solely on a consideration of the nature of the underlying conduct, as
discussed above.

Moreover, “district courts have extremely broad discretion when

determining the weight” of each § 3553(a) factor. Nance, 957 F.3d at 215.
Finally, Appellants argue the district court failed to adequately explain why it varied
further from the Guidelines range for Appellant Evans’s sentence than for Appellant
14

15a
Richmond’s. But a fulsome review of the sentencing hearing reveals that the district court
did not impose identical upward variances because it did not believe Appellants played
identical roles in the underlying offenses. Indeed, throughout the hearing, the district court
asked counsel for Appellants and the Government to “distinguish the conduct of
[Appellant] Evans in [the underlying] offenses from the conduct of others.” J.A. 247.
Through these discussions, the district court reasonably concluded that Appellant Evans
played a more central and violent role in the carjackings than Appellant Richmond. Thus,
the district court expressly relied on distinctions in conduct to justify the distinction in the
variant sentences. For these reasons, we conclude that Appellants’ sentences are not
substantively unreasonable.
IV.
For the foregoing reasons, the judgments of the district court are
AFFIRMED.

15

16a

Case 3:18-cr-00864-TLW Document 148 Filed 11/15/19 Page 1 of 6
AO 2458 (SCDC Rev.02/18) Judgment in a Criminal Case Sheet 1

UNITED STATES DISTRICT COURT
District of South Carolina
UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

VS .

Case Number: 3: 18-864 (1)
JEVANTEMARCUS RICHMOND
a/k/a "Man"

USM Number: 33772-171
Katherine Evatt, FPD
Defendant's Attorney

THE DEFENDANT:
■

D
D

pleaded guilty to Count 3 of the Indictment and Count 1 of the Infon nation on March 19, 2019 .
pleaded nolo contendere to count(s) _ _ _ _ _ _ _ _ _ _ _ _ _which was accepted by the court.
was found guilty on count(s) _ after a plea of not guilty.

The defendant is adjudicated guilty of these offenses:
Title & Section
18:922(g)(l), 924(a)(2)
18:924(c)(l)(A)(ii) and 2

Nature of Offense
Please see indictment
Please see info1mation

Offense Ended
August 4, 2018
August 3, 2018

Count
3
1

The defendant is sentenced as provided in pages 2 through§. of this judgment. The sentence is imposed pursuant to
the Sentencing Refonn Act of 1984.

D

The defendant has been found not guilty on count(s)_ _.

■

Count 4 of the Indictment

■

Forfeiture provision is hereby dismissed on motion of the United States Attomey.

■ is Dare dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States Attomey for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the comt and United States attomey of any material changes in economic
circU1UStances.
November 13, 2019
Date of Impos1tion of Judgment

s/ Ieay T Wooten
Signature of Judge
Terry L. Wooten, Senior United States Disti-ict Judge
Name and Title of Judge

November 15 2019
Date

17a

Case 3:18-cr-00864-TLW Document 148 Filed 11/15/19 Page 2 of 6

AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case

Page 2

Sheet 2 - Imprisonment

DEFENDANT: JEVANTE MARCUS RICHMOND
CASE NUMBER: 3:18-864

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for
a total term of Two Hundred Four (240) months consisting of One Hundred Twenty (120) months as to Count 1
and One Hundred Twenty (120) months as to Count 3, said terms to run consecutively.

O

The court makes the following recommendations to the Bureau of Prisons:
* That defendant be placed in a Federal Institution in South Carolina.

O

The defendant is remanded to the custody of the United States Marshal.

G

The defendant shall surrender to the United States Marshal for this district:

G at
G a.m. G p.m. on
G as notified by the United States Marshal.

.

G

The defendant shall surrender for service of sentence at the institution designated by the Bureau of
Prisons:

G before 2 p.m. on
.
G as notified by the United States Marshal.
G as notified by the Probation or Pretrial Services Office.
RETURN
I have executed this Judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.
UNITED STATES MARSHAL
By

DEPUTY UNITED STATES MARSHAL

18a

Case 3:18-cr-00864-TLW Document 148 Filed 11/15/19 Page 3 of 6

AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case
Sheet 3 - Supervised Release

Page 3

DEFENDANT: JEVANTE MARCUS RICHMOND
CASE NUMBER: 3:18-864

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of Five (5) years consisting of Five (5) years
as to Count 1 and Three (3) years as to Count 3, said terms to run concurrently.

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6.
7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
9 The above drug testing condition is suspended, based on the court’s determination that you pose a low risk of future
substance abuse. (check if applicable)
9 You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. (check if applicable)
 You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
9 You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. §20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
9 You must participate in an approved program of domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as the following additional conditions:
1) The defendant shall participate in a substance abuse testing and treatment program, as approved by the U.S. Probation Office. The
defendant shall contribute to the costs of such treatment not to exceed an amount determined reasonable by the court approved
"U.S. Probation Office's Sliding Scale for Services" and shall cooperate in securing any applicable third-party payment, such as
insurance or Medicaid.

19a

Case 3:18-cr-00864-TLW Document 148 Filed 11/15/19 Page 4 of 6

AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case
Sheet 3A- Supervised Release

Page 4

DEFENDANT: JEVANTE MARCUS RICHMOND
CASE NUMBER: 3:18-864

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of
your release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a
different time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how
and when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission
from the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your
living arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the
change. If notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify the
probation officer within 72 hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation
officer to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer
excuses you from doing so. If you plan to change where you work or anything about your work (such as your position or job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at
least 10 days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has
been convicted of a felony, you must not knowingly communicate or interact with that person without first getting the
permission of the probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything
that was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as
nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer
may require you to notify the person about the risk and you must comply with that instruction. The probation officer may
contact the person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at www.uscourts.gov.

Defendant’s Signature _______________________________________________________ Date __________________________

20a

Case 3:18-cr-00864-TLW Document 148 Filed 11/15/19 Page 5 of 6
AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case
Sheet 5 - Criminal Monetary Penalties

Page 5

DEFENDANT: JEVANTE MARCUS RICHMOND
CASE NUMBER: 3:18-864

CRIMINAL MONETARY PENALTIES
The defendant shall pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment
TOTALS

JVTA Assessment*

$ 200.00

Fine

Restitution

$

$6572.55

G

The determination of restitution is deferred until _____________. An Amended Judgment in a Criminal Case(AO245C) will be
entered after such determination.

O

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before the United States is paid.

Name of Payee

Total Loss*

Restitution Ordered

DNR Arms c/o William Rentz

$4530.30

$4530.30

Georgia Arms Inc. c/o Kathryn Ownby

$721.50

$721.50

Fit My Gun c/o Henry Orr

$32.00

$32.00

Shannon Gibson

$1288.75

$1288.75

TOTALS

$6572.55

Priority or Percentage

$6572.55

G

Restitution amount ordered pursuant to plea agreement

$

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of judgment, pursuant to 18 U.S.C. §3612(f). All of the payment options on Sheet 5 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. §3612(g).

O

The court determined that the defendant does not have the ability to pay interest and it is ordered that:
O
The interest requirement is waived for the G fine O restitution.
G
The interest requirement for the G fine G restitution is modified as follows:

*Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
**Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed
on or after September 13, 1994, but before April 23, 1996.

21a

Case 3:18-cr-00864-TLW Document 148 Filed 11/15/19 Page 6 of 6
AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case
Sheet 6 - Schedule of Payments

Page 6

DEFENDANT: JEVANTE MARCUS RICHMOND
CASE NUMBER: 3:18-864

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

O

Lump sum payment of $ 6772.55 due immediately, balance due

G
O

not later than

, or

B

G C, O D, or G E, or G F below: or
G Payment to begin immediately (may be combined with G C, G D, or G F below); or

C

G

in accordance with

Payment in equal

(weekly, monthly, quarterly) installments of $

(e.g., months or years), to commence

over a period of

(e.g., 30 or 60 days) after the date of this judgment; or

D

O

Payment in equal
Monthly
(e.g., weekly, monthly, quarterly) installments of $ 200.00
over a
period of
(e.g., months or years), to commence 30 days
(e.g., 30 or 60 days) after release from
imprisonment to a term of supervision; or

E

G

Payment during the term of supervised release will commence within (e.g., 30 or 60 days) after release from imprisonment.
The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

G

Special instructions regarding the payment of criminal monetary penalties:

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk of court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

O

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.
Arthur Gene Evans, Jr. (2)
Shelvey Laquan Grant (3)

G
G
G

3:18cr864
3:18cr864

$6572.55
$6572.55

Joint and several
Joint and several

The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant’s interest in the following property to the United States:

As directed in the Preliminary Order of Forfeiture, filed

and the said order is incorporated herein as part of this judgment.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

22a

Case 3:18-cr-00864-TLW Document 150 Filed 11/15/19 Page 1 of 6
AO 2458 (SCDC Rev.02/18) Judgment in a Criminal Case Sheet 1

UNITED STATES DISTRICT COURT
District of South Carolina
UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

VS .

Case Number: 3: 18-864 (2)
ARTHUR GENE EVANS, JR.
USM Number: 33775-171
John Earl Duncan, Esq.
Defendant's Attorney

THE DEFENDANT:
■

D
D

pleaded guilty to counts 2 and 8 of the Indictment on March 20, 2019
pleaded nolo contendere to count(s) _ _ _ _ _ _ _ _ _ _ _ _ _which was accepted by the court.
was found guilty on count(s) _ after a plea of not guilty.

The defendant is adjudicated guilty of these offenses:
Title & Section
Nature of Offense
18:924(c)(l)(A)(ii) and 2
Please see indictment
Please see indictment
18:924(c)(l)(A)(ii),
924(c)(l)(A)(iii), 924(c)(l)(C)
and2

Offense Ended
August 3, 2018
August 4, 2018

Count
2
8

The defendant is sentenced as provided in pages 2 through ,2 of this judgment. The sentence is imposed pursuant to
the Sentencing Refonn Act of 1984.

D

The defendant has been found not guilty on count(s)_ _.

■

Counts L 3-7. 9- 11

■

Forfeiture provision is hereby dismissed on motion of the United States Attomey.

D is ■ are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States Attomey for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this j udgment are fully paid. If
ordered to pay restitution, the defendant must notify the comt and United States attomey of any material changes in economic
circU1UStances.
November 13, 2019
Date of Imposition of Judgment

s/ Ieay T Wooten
Signature of Judge
Terry L. Wooten, Senior United States Disti-ict Judge
Name and Title of Judge

November 15 2019
Date

23a

Case 3:18-cr-00864-TLW Document 150 Filed 11/15/19 Page 2 of 6

AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case

Page 2

Sheet 2 - Imprisonment

DEFENDANT: ARTHUR GENE EVANS, JR.
CASE NUMBER: 3:18-864

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for
a total term of Two Hundred Fifty-Two (252) months consisting of One Hundred Twenty-Six (126) months as
to Count 2 and One Hundred Twenty-Six (126) months as to Count 8, said terms to run consecutively.

O

The court makes the following recommendations to the Bureau of Prisons:
* That defendant be placed in a Federal Institution in South Carolina.

O

The defendant is remanded to the custody of the United States Marshal.

G

The defendant shall surrender to the United States Marshal for this district:

G at
G a.m. G p.m. on
G as notified by the United States Marshal.

.

G

The defendant shall surrender for service of sentence at the institution designated by the Bureau of
Prisons:

G before 2 p.m. on
.
G as notified by the United States Marshal.
G as notified by the Probation or Pretrial Services Office.
RETURN
I have executed this Judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.
UNITED STATES MARSHAL
By

DEPUTY UNITED STATES MARSHAL

24a

Case 3:18-cr-00864-TLW Document 150 Filed 11/15/19 Page 3 of 6

AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case
Sheet 3 - Supervised Release

Page 3

DEFENDANT: ARTHUR GENE EVANS, JR.
CASE NUMBER: 3:18-864

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of Five (5) years consisting of Five (5) years
as to Count 2 and Five (5) years as to Count 8, said terms to run concurrently.

MANDATORY CONDITIONS
1.
2.
3.

4.
5.
6.
7.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
9 The above drug testing condition is suspended, based on the court’s determination that you pose a low risk of future
substance abuse. (check if applicable)
9 You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence of
restitution. (check if applicable)
 You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
9 You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. §20901, et seq.) as
directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in the location where
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
9 You must participate in an approved program of domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as the following additional conditions:
1) The defendant shall participate in a substance abuse testing and treatment program, as approved by the U.S. Probation Office. The
defendant shall contribute to the costs of such treatment not to exceed an amount determined reasonable by the court approved
"U.S. Probation Office's Sliding Scale for Services" and shall cooperate in securing any applicable third-party payment, such as
insurance or Medicaid.

25a

Case 3:18-cr-00864-TLW Document 150 Filed 11/15/19 Page 4 of 6
AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case
Sheet 3A- Supervised Release

Page 4

DEFENDANT: ARTHUR GENE EVANS, JR.
CASE NUMBER: 3:18-864

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of
your release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a
different time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how
and when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission
from the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your
living arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the
change. If notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify the
probation officer within 72 hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation
officer to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer
excuses you from doing so. If you plan to change where you work or anything about your work (such as your position or job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at
least 10 days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has
been convicted of a felony, you must not knowingly communicate or interact with that person without first getting the
permission of the probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything
that was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as
nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer
may require you to notify the person about the risk and you must comply with that instruction. The probation officer may
contact the person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at www.uscourts.gov.

Defendant’s Signature _______________________________________________________ Date __________________________

26a

Case 3:18-cr-00864-TLW Document 150 Filed 11/15/19 Page 5 of 6
AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case
Sheet 5 - Criminal Monetary Penalties

Page 5

DEFENDANT: ARTHUR GENE EVANS, JR.
CASE NUMBER: 3:18-864

CRIMINAL MONETARY PENALTIES
The defendant shall pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment
TOTALS

JVTA Assessment*

$ 200.00

Fine

Restitution

$

$ 6572.55

G

The determination of restitution is deferred until _____________. An Amended Judgment in a Criminal Case(AO245C) will be
entered after such determination.

O

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified
otherwise in the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before the United States is paid.

Name of Payee

Total Loss*

DNR Arms c/o William Rentz

$4530.30

$4530.30

Georgia Arms Inc. c/o Kathryn Ownby

$721.50

$721.50

Fit My Gun c/o Henry Orr

$32.00

$32.00

Shannon Gibson

$1288.75

$1288.75

TOTALS

Restitution Ordered

$6572.55

Priority or Percentage

$6572.55

G

Restitution amount ordered pursuant to plea agreement

$

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
the fifteenth day after the date of judgment, pursuant to 18 U.S.C. §3612(f). All of the payment options on Sheet 5 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. §3612(g).

O

The court determined that the defendant does not have the ability to pay interest and it is ordered that:
O
The interest requirement is waived for the G fine O restitution.
G
The interest requirement for the G fine G restitution is modified as follows:

*Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
**Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed
on or after September 13, 1994, but before April 23, 1996.

27a

Case 3:18-cr-00864-TLW Document 150 Filed 11/15/19 Page 6 of 6
AO 245B (SCDC Rev. 02/18) Judgment in a Criminal Case
Sheet 6 - Schedule of Payments

Page 6

DEFENDANT: ARTHUR GENE EVANS, JR.
CASE NUMBER: 3:18-864

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

O

Lump sum payment of $ 6772.55 due immediately, balance due

G
O

not later than

, or

B

G C, O D, or G E, or G F below: or
G Payment to begin immediately (may be combined with G C, G D, or G F below); or

C

G

in accordance with

Payment in equal

(weekly, monthly, quarterly) installments of $

(e.g., months or years), to commence

over a period of

(e.g., 30 or 60 days) after the date of this judgment; or

D

O

Payment in equal
Monthly
(e.g., weekly, monthly, quarterly) installments of $ 200.00
period of
(e.g., months or years), to commence
30 days (e.g., 30 or 60 days) after release from
imprisonment to a term of supervision; or

E

G

Payment during the term of supervised release will commence within (e.g., 30 or 60 days) after release from imprisonment.
The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

G

Special instructions regarding the payment of criminal monetary penalties:

over a

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk of court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

O

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.
Jevante Marcus Richmond (1)
Shelvey Laquan Grant (3)

G
G
G

3:18cr864
3:18cr864

$6572.55
$6572.55

Joint and several
Joint and several

The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant’s interest in the following property to the United States:

As directed in the Preliminary Order of Forfeiture, filed

and the said order is incorporated herein as part of this judgment.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

